APP Covers 1-4.qxd   12/16/09   11:23 AM   Page 1
APP Covers 1-4.qxd   12/16/09   11:23 AM   Page 2




                                     Office of Inspector General
                                           Gregory H. Friedman
                                                    Inspector General
                 This report is also available on the Department of Energy/Office of Inspector General
                                           website at http://www.ig.energy.gov
ANNUAL PERFORMANCE REPORT
          FY 2009

ANNUAL PERFORMANCE PLAN
         FY 2010




      U.S. DEPARTMENT OF ENERGY

     OFFICE OF INSPECTOR GENERAL
THIS PAGE INTENTIONALLY LEFT BLANK
Message from the Inspector General
I am pleased to present the Office of Inspector General’s combined Fiscal Year 2009 Annual
Performance Report and Fiscal Year 2010 Annual Performance Plan.

On February 17, 2009, the American Recovery and Investment Act of 2009 (Recovery Act)
was enacted. Under the Recovery Act, the Department of Energy received just under $40
billion for various energy, environmental and science programs and initiatives. The
Recovery Act also created the Recovery Accountability and Transparency Board, in
recognition of the need for effective oversight to protect taxpayer’s interest. Under the
statue, the Department of Energy’s Inspector General is a member of the Board

In support of the objectives outlined in the Recovery Act, this office has developed and is
executing a multi-phase strategy designed to provide the most effective oversight possible of
Recovery Act activities, with available resources. Our goal is to work with Department
management to maximize the Recovery Act’s efforts to achieve accountability and
transparency.

Moving forward, we plan to continue our focus on helping management achieve the
programmatic objectives of the Recovery Act, as they apply to the Department of Energy.
We also plan to address other Departmental Management Challenges identified by this
office, including: Contract Administration, Cyber Security, Energy Supply, Environmental
Cleanup, Human Capital Management, Safeguards and Security, and Stockpile Stewardship.

My staff and I are committed to the many challenges facing the Department and look
forward to working with our dedicated Department of Energy colleagues in the interest of
the American people.




                                                       Gregory H. Friedman
                                                       Inspector General




                                               i
OFFICE   OF   INSPECTOR      GENERAL                  U.S.   DEPARTMENT        OF   ENERGY
THIS PAGE INTENTIONALLY LEFT BLANK
Table of Contents
                                                                                                                        Page

Overview, Vision, and Mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

FY 2009 OIG Performance Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

Relationship with the Department of Energy . . . . . . . . . . . . . . . . . . . . . . . . . . 19

FY 2010 Funding Priorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

FY 2010 Performance Plan . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

Our Organization . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
      Office of Audit Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
      Office of Inspections and Special Inquiries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37
      Office of Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 40

Appendix A
      Planned FY 2010 Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45
      Planned FY 2010 Inspections . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 50

Appendix B
      OIG Responsibilities and Authorities and Other Mandates . . . . . . . . . . . . . . . . . . . . 52

Appendix C
      Validation and Verification . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 54




                                                              iii
OFFICE      OF    INSPECTOR           GENERAL                            U.S.      DEPARTMENT              OF    ENERGY
THIS PAGE INTENTIONALLY LEFT BLANK
Overview, Vision, and Mission

A    s mandated by the Inspector General Act of 1978, as amended, the Office of Inspector
     General (OIG) promotes the effective operation of the Department of Energy
(Department), including the National Nuclear Security Administration (NNSA) and the
Federal Energy Regulatory Commission (FERC). This is accomplished through audits,
inspections, and investigations designed to improve economy and efficiency and to detect
and prevent fraud, waste, abuse, mismanagement, and violations of law. As part of a
collective effort, the OIG’s goal is to ensure that the Department is:
   ■   Fulfilling its program goals effectively;
   ■   Using its resources efficiently in this pursuit;
   ■   Operating within the scope of its legislative mandates;
   ■   Meeting the President’s Management Agenda; and,
   ■   Addressing Departmental priorities established by the Secretary.

This report highlights the OIG’s FY 2009 actual performance and FY 2010 planned
activities. The goals, objectives, and strategies included in this document will be used to
plan, measure and report on OIG results. This document includes the results of FY 2009
audits, inspections, investigations, and special requested actions; constant efforts to improve
the OIG in alignment with the President's Management Agenda; the relationship between
the Department and the OIG; and, the plan to fund and accomplish FY 2010 goals.
Appendices include the FY 2010 audit and inspection plans; OIG responsibilities, authorities
and other mandates; and, validation and verification of OIG performance activities.


Vision
To be a highly effective organization that promotes positive change by identifying
opportunities for improvements in the performance and efficiency of the Department’s
programs and operations.


Mission
To promote the effective, efficient, and economical operation of the Department through
audits, inspections, investigations, and other reviews to detect and prevent waste, fraud,
abuse, and violations of law.




                                                   1
OFFICE     OF   INSPECTOR      GENERAL                    U.S.   DEPARTMENT      OF   ENERGY
THIS PAGE INTENTIONALLY LEFT BLANK
FY 2009 OIG Performance Results
The OIG continues to make positive contributions to the Department’s mission-related
priorities. Some highlights of our work in FY 2009 include:


  Funds Put to Better Use                                                 $466 million

  Fines, Settlements, and Recoveries                                     $85.5 million

  Criminal Convictions                                                                 28

  Suspensions and Debarments                                                           35

  Civil or Administrative Actions                                                  101

  Potential Recoveries from 16 Open
  False Claims Act Investigations                                       $295.6 million

  Hotline Complaints and Inquiries Received                                      1,391
      Hotline Complaints and Inquiries Processed                                   407

  Total Reports Issued                                                                 78
      Recovery Act Reports                                                              4
      Audit Reports                                                                    58
      Inspection Reports                                                               16


The OIG measures its performance against long-term and annual goals set forth in OIG
planning documents. During this reporting period, the OIG successfully achieved its
FY 2009 performance goals. In most instances, the OIG exceeded its goals. The following
are the specific results:




                                            3
OFFICE   OF   INSPECTOR     GENERAL                U.S.   DEPARTMENT       OF   ENERGY
                                                                           FY 2009 OIG Performance Results




Goal 1
Promote the President’s Management Agenda and the Mission Priorities of the
Secretary and Congress

 Objective 1:
 Conduct reviews seeking positive change in the Department relating to the
 implementation of the initiatives in the President’s Management Agenda, the Secretary’s
 Priorities, and the OIG-identified Management Challenges.

 Performance Measures:                                                          Accomplishments
 1a. By the end of FY 2011, complete reviews that address each
     Presidential, Secretarial, and OIG initiative, priority, and/or
     challenge as identified in FY 2009.                                              Met Goal
 1b. At least 50% of inspection reports will address safety or
     security-related topics.                                                     Exceeded Goal

                   Audits                           Inspections                   Investigations
 1a.    A total of 61 audits were         A total of 16 reviews were              (Not applicable)
        conducted that addressed the      completed that addressed the
        President’s Management            President’s Management
        Agenda, the Secretary’s           Agenda initiatives, the
        Mission Priorities, and           Secretary’s Mission Priorities,
        OIG-identified Management         and OIG-identified
        Challenges.                       Management Challenges.
 1b.           (Not applicable)           A total of 62.5% (10 of 16              (Not applicable)
                                          reports as of September 30,
                                          2009) were conducted to
                                          address safety-related topics.


Performance Highlights:

Audits related to OIG-identified Management Challenges were as follows:

   ■   An audit was conducted to determine whether the Department met quality assurance
       standards when procuring structures, systems, and components (SSCs) for nuclear-
       related activities at Savannah River. We found that SSCs procured and installed in
       three major nuclear facilities at Savannah River failed to meet quality assurance
       standards because of inadequate controls to prevent and detect quality problems.



                                                4
OFFICE    OF   INSPECTOR      GENERAL                     U.S.    DEPARTMENT            OF    ENERGY
FY 2009 OIG Performance Results




        These findings have potential implications on the site’s management of Recovery Act
        stimulus funds used for similar purposes. Accordingly, we made several
        recommendations designed to strengthen the quality assurance process at Savannah
        River. http://www.ig.energy.gov/documents/IG-0814.pdf

    ■   We conducted an audit to determine if the Department had established internal and
        operational controls over its Loan Guarantee Program. Our review disclosed that
        while a number of key programmatic safeguards had been developed and
        implemented, the Department had not yet (1) completed a control structure necessary
        to award loan guarantees and monitor associated projects; (2) finalized policies and
        procedures for evaluating loan applications, approving loan guarantees, monitoring
        project and loan guarantee performance, qualifying potential lenders and monitoring
        participating lenders; (3) formalized procedures for disbursing loan proceeds to
        successful applicants; and, (4) fully staffed the Loan Guarantee Program Office.
        Management concurred with our recommendations and implemented corrective
        actions to improve the Program. http://www.ig.energy.gov/documents/IG-0812.pdf

In addition, to provide oversight of Recovery Act programs, we issued a special report to the
Department’s leadership that suggested approaches the Department should employ to
reduce the risks associated with managing the unprecedented levels of Recovery Act funding.

    ■   An audit was conducted to determine whether the Department managed Information
        Technology (IT) resources in an energy-efficient and environmentally responsible
        manner. Our audit found that the Department had not always taken advantage of
        opportunities to reduce energy consumption associated with its IT resources. Also,
        the Department had not ensured that IT resources were managed in a way that
        minimized impact on the environment. Without improvements, the Department will
        not be able to take advantage of opportunities to reduce energy consumption and
        realize cost savings. http://www.ig.energy.gov/documents/OAS-RA-09-03.pdf

    ■   Another audit was conducted to determine whether the Department ensured that
        Recovery Act funds can be appropriately tracked and are transparent to the public, and
        whether the benefits of the expenditures can be properly measured and reported
        clearly, accurately, and in a timely manner. Several challenges were identified relating
        to Recovery Act performance management, accounting and reporting accuracy, and
        timeliness that should be addressed and resolved. While much has been done to
        mitigate these challenges, additional work is necessary if the Department is to
        successfully manage Recovery Act-related risks. We made a number of
        recommendations that could help enhance the Department’s ongoing efforts.
        http://www.ig.energy.gov/documents/OAS-RA-09-04.pdf




                                                5
OFFICE      OF   INSPECTOR        GENERAL               U.S.   DEPARTMENT        OF   ENERGY
                                                                     FY 2009 OIG Performance Results




Inspections and reviews related to the President’s Management Agenda initiatives, the
Secretary’s Mission Priorities, and the OIG-identified Management Challenges were as
follows:

   ■   A review was conducted at Oak Ridge National Laboratory and associated facilities to
       determine whether Accountable Classified Removable Electronic Media (ACREM)
       was managed, protected, and controlled consistent with applicable requirements. Our
       review disclosed that eight pieces of Secret/Restricted Data media had not been
       identified as ACREM and placed into a system of accountability. Also, other required
       ACREM protections and controls were not properly implemented. Management
       concurred with our recommendations designed to enhance the security of ACREM,
       security areas, and computers. http://www.ig.energy.gov/documents/INS-O-09-02.pdf

   ■   An inspection was conducted at the Lawrence Livermore National Laboratory
       (Livermore) to evaluate the adequacy of Livermore’s internal controls over
       Government property with specific emphasis on personal property assigned to
       terminated individuals and stolen laptop computers. Our inspection revealed that
       internal controls over property at Livermore could be improved. We found that the
       location and/or custodian of approximately 18 percent of the property items in our
       sample was inaccurately reflected in the contractor’s property management database.
       Also, some employees were not adequately protecting laptops while offsite and were
       not held accountable for the subsequent theft of the computers. Management agreed
       with our recommendations to improve property accountability at Livermore.
       http://www.ig.energy.gov/documents/INS-O-09-03.pdf

   ■   We conducted an inspection to determine if fire suppression and related services at Los
       Alamos National Laboratory (LANL) are assured through contractual arrangements
       with Los Alamos County. Our inspection determined that fire fighters had not been
       properly trained nor did they have the knowledge to confidently and effectively
       respond to an emergency in the unique operational environments they may encounter
       at Los Alamos. We also found that facility management had not addressed long
       standing recommendations made in the 1995 and 2004 Los Alamos Baseline Needs
       Assessments. To fully correct the conditions identified during this review, we made
       several recommendations to the NNSA Administrator to take immediate action to
       address these problems. Management agreed with our recommendations.
       http://www.ig.energy.gov/documents/IG-0821.pdf

   ■   An inspection of the Office of Intelligence and Counterintelligence’s (IN) Foreign
       Intelligence Surveillance Act (FISA) support activities was initiated. We reviewed four
       cases IN identified as having been referred by the Federal Bureau of Investigation
       (FBI) for analysis of raw data collected under FISA court orders, as well as applicable
       IN policies and procedures. While our inspection did not disclose any evidence that
       IN processed casework in a manner that was inconsistent with FISA, we did find,
       however, that one of the four FISA cases referred by the FBI for analysis was not


                                               6
OFFICE     OF   INSPECTOR     GENERAL                  U.S.   DEPARTMENT          OF    ENERGY
FY 2009 OIG Performance Results




        completed in a timely manner and IN management was not aware of this situation.
        We also found that IN did not have written procedures for processing FISA cases and
        lacked an IN-wide process for tracking and following up on FISA cases. We suggested
        that management develop procedures and implement protocols to improve the
        processing, tracking, and follow up of FISA cases.
        http://www.ig.energy.gov/documents/INS-L-09-05.pdf
    ■   An inspection was conducted at the Hanford Site to determine if the purchase of
        overtime meals and gifts using Government funds was in compliance with applicable
        Federal regulations and policies. We found that Site contractors used Government
        funds to purchase overtime meals for employees and gift items that were given away to
        the public, which appeared to conflict with Federal regulations and policies. Based
        upon our findings, the Department's Richland Operations Office and Office of River
        Protection advised us that future collective bargaining labor agreements would not
        allow for Government funds to be used for overtime meals. Further, the Richland
        Operations Office indicated that providing gifts to the public would be discontinued.
        http://www.ig.energy.gov/documents/INS-l-09-02.pdf


Goal 2
Improve economy and efficiency and reduce waste, fraud, and abuse within
the Department

 Objective 2:
 Concentrate OIG efforts on issues that have the greatest impact and usefulness to the
 Department.

 Performance Measures:                                                    Accomplishments
 2a. Ensure that every performance review includes an analysis of
     program accomplishments and the use of metrics to measure results.      Met Goal
 2b. Ensure that 57% of all performance audits include
     recommendations leading to demonstrable cost savings, program
     efficiencies, and/or funds put to better use.                         Exceeded Goal
 2c. Complete five follow-up reviews annually to determine the status
     and efficacy of corrective actions.                                   Exceeded Goal
 2d. Ensure that each year 80% of all planned performance audits
     address high-risk areas as identified in the OIG annual risk-based
     programmatic assessments.                                             Exceeded Goal
 2e. Strive for the Department to accept at least 79% of OIG
     report recommendations.                                               Exceeded Goal



                                               7
OFFICE     OF    INSPECTOR        GENERAL               U.S.   DEPARTMENT      OF   ENERGY
                                                                      FY 2009 OIG Performance Results




                 Audits                            Inspections               Investigations
 2a.   All of the 37 performance         All performance reviews            (Not applicable)
       audits completed included an      completed during the
       analysis of program               reporting period included an
       accomplishments and the use       analysis of program
       of metrics to measure results.    accomplishments and the use
                                         of metrics to measure results
                                         or documented that an
                                         analysis was not appropriate
                                         or required.
 2b.   78% of all performance audits           (Not applicable)             (Not applicable)
       issued included demonstrable
       cost savings, program
       efficiencies and/or funds that
       can be put to better use in
       excess of $466 million.
 2c.   8 of the 37 performance                 (Not applicable)             (Not applicable)
       audits completed were
       follow-up reviews to
       determine the status and
       efficacy of corrective actions.
 2d.   90% of our planned                      (Not applicable)             (Not applicable)
       performance audits addressed
       high-risk and sensitive areas
       identified in the OIG annual
       risk-based programmatic
       assessments.
 2e.   There were 85 audit               100% of all                        (Not applicable)
       recommendations included in       recommendations (a total
       the 37 performance audits         of 44) were accepted as of
       conducted. The Department         September 30, 2009.
       concurred with 83% of our
       recommendations.


Performance Highlights:

For the performance audits issued, 78 percent identified demonstrable cost savings,
program efficiencies and/or funds that can be put to better use in excess of $466 million.




                                               8
OFFICE   OF   INSPECTOR      GENERAL                    U.S.     DEPARTMENT        OF    ENERGY
FY 2009 OIG Performance Results




For example:

    ■   Based on our audit of “Potential Uses for Depleted Uranium Oxide,” there is a
        possibility that the Department could save approximately $413 million in disposal
        costs by fully evaluating potential alternatives of depleted uranium oxide.
        http://www.ig.energy.gov/documents/IG-0810.pdf

    ■   Based on our audit of “Management of Energy Savings Performance Contract Delivery
        Orders at the Department of Energy,” the Department risks spending up to $17.3
        million more than it will realize in energy savings.
        http://www.ig.energy.gov/documents/IG-0822.pdf

    ■   Based on our audit of “The Department of Energy’s Opportunity for Energy Savings
        Through the Use of Setbacks in its Facilities,” there is the potential for savings of about
        $11.5 million in annual utility costs by using setbacks in the Department’s buildings.
        http://www.ig.energy.gov/documents/IG-0817.pdf

Fundamental to the annual audit planning process is conducting risk assessments and the
development of audit profiles. The OIG considers all major contractor sites to be high risk.
Other considerations include OIG institutional knowledge; past program performance;
funding levels; and, Presidential, Secretarial, and congressional concerns. By June 30, 2009,
we completed risk-based programmatic assessments for each Department, NNSA and
program activity. These risk assessments resulted in the identification of significant auditable
entities at various Department locations. Another part of our audit planning process includes
input from Department management, other interested parties, and the OIG staff.

We also performed audits in response to congressional requests. For example, our “Special
Report on Allegations of Conflict of Interest Regarding Licensing of PROTECT by Argonne
National Laboratory,” was performed in response to a request from an Illinois Congressman.
We concluded that the competition and licensing process for PROTECT had not
completely satisfied Department objectives related to ensuring that technology partnering
programs provide fair opportunities to interested parties. We made several
recommendations designed to help improve the safeguards associated with technology
transfer license competitions. http://www.ig.energy.gov/documents/IG-0819.pdf

Further, the Department concurred with all 44 recommendations contained in the 16
reports issued by the Office of Inspections and Special Inquiries. The following are
examples of positive outcomes resulting from inspection recommendations:

    ■   The Lawrence Livermore Site Office issued a memorandum to Lawrence Livermore
        National Security, LLC, restricting the protective force’s actions offsite to the
        Department’s mission, and that the use of the California Law Enforcement
        Telecommunication System is not authorized for traffic enforcement. The Office of
        Health, Safety and Security also issued a memorandum to Department and NNSA


                                                  9
OFFICE      OF   INSPECTOR        GENERAL                  U.S.   DEPARTMENT         OF   ENERGY
                                                                          FY 2009 OIG Performance Results




       security officials reiterating existing offsite assistance policy to local law enforcement
       authorities by Department contractor personnel and accessing law enforcement
       databases during administrative traffic stops exceeds the scope of protective force
       authorized duties. http://www.ig.energy.gov/documents/DOE-IG-0820(1).pdf

   ■   Oak Ridge National Laboratory (ORNL) officials disabled the document servers for
       over 160 copiers with hard drives in use at ORNL to prevent the possible release of
       sensitive information stored on the hard drives. ORNL officials also modified copier
       lease agreements to include a requirement to either remove copier hard drives or to
       properly clear, purge, or destroy the hard drives before excessing. Further, ORNL
       officials discontinued returning copiers to its suppliers after we made initial inquiries
       in December 2007, and later identified 218 hard drives to be removed from leased
       copiers. http://www.ig.energy.gov/documents/INS-L-09-06.pdf

   ■   ORNL officials promptly placed the eight pieces of Accountable Classified Removable
       Electronic Media (ACREM) into accountability; issued two Incident of Security
       Concern reports; and, provided ACREM training to custodians. In addition, the Oak
       Ridge Office issued guidance to the United States Enrichment Corporation to disable
       ports on its classified computers.
       http://www.ig.energy.gov/documents/INS-O-09-02.pdf


 Objective 3:
 Provide timely information to the Department so that prompt action can be taken to
 improve program performance.

 Performance Measures:                                                         Accomplishments
 3a. Issue 80% of audit reports no later that 60 days following receipt
     of management comments.                                                     Exceeded Goal
 3b. Ensure that the average time to issue Investigative Reports to
     Management (IRMs) is 55 days or less following final resolution
     of criminal and civil investigations.                                       Exceeded Goal
 3c. Complete the field work for 80% of inspections within
     90 work days.                                                               Exceeded Goal




                                                 10
OFFICE     OF   INSPECTOR      GENERAL                    U.S.   DEPARTMENT            OF    ENERGY
FY 2009 OIG Performance Results




                     Audits                           Inspections           Investigations
 3a.     83% were issued within                  (Not applicable)           (Not applicable)
         60 days following receipt of
         management comments, to
         provide timely information to
         Department management.
 3b.             (Not applicable)                (Not applicable)         IRMs were issued in
                                                                          23 days, on average,
                                                                          following final
                                                                          resolution of
                                                                          criminal and/or
                                                                          civil action.
 3c.            (Not applicable)            83% of the inspection          (Not applicable)
                                            field work was completed
                                            within 90 work days.



 Objective 4:
 Strengthen financial management and cyber security through completion of mandatory
 reviews in accordance with OMB and other applicable requirements.

 Performance Measures:                                                     Accomplishments
 4a. Complete annually, by the established due date, the Department’s
     Consolidated Financial Statement audits to determine whether
     the financial statements are free from material misstatement.         Exceeded Goal
 4b. By September 30, 2009, review the Department’s classified and
     unclassified information security system programs in accordance
     with the Federal Information Security Management Act of 2002.         Exceeded Goal
 4c. Initiate 10 “Statement of Costs Incurred and Claimed” audits
     annually to assess internal controls over costs claimed by the
     Department’s major contractors.                                       Exceeded Goal




                                                 11
OFFICE     OF    INSPECTOR        GENERAL                  U.S.     DEPARTMENT   OF   ENERGY
                                                                    FY 2009 OIG Performance Results




                 Audits                           Inspections              Investigations
 4a.   The Department's FY 2009               (Not applicable)            (Not applicable)
       Consolidated Financial
       Statements were issued on
       November 12, 2009, and
       resulted in an unqualified
       opinion.
 4b.   We completed reviews of the            (Not applicable)            (Not applicable)
       Department’s unclassified
       information security systems
       in accordance with the
       Federal Information Security
       Management Act of 2002.
       The reviews were completed
       in October 2009, well ahead
       of the OMB’s revised
       reporting date of
       November 18, 2009.
 4c.   We initiated 18 Statement of           (Not applicable)            (Not applicable)
       Costs Incurred and Claimed
       audits to determine whether
       the Department's integrated
       contractors were reimbursed
       for allowable costs consistent
       with their contracts.


Performance Highlights:

The Department’s Consolidated Financial Statements found that the Department took a
number of actions to improve controls over financial reporting during FY 2009. However,
the audit found significant deficiencies in the Department's internal controls over
accounting for property, plant and equipment and unclassified network and information
systems security. While the Department has made progress in addressing previously
identified cyber security weaknesses, network vulnerabilities and weaknesses in access and
other security controls over unclassified computer information systems continued to exist.
Neither of these significant deficiencies was considered to be a material weakness.

As a result of our review of the unclassified information security systems, we found that the
Department had taken steps to improve its cyber security program by strengthening
configuration management of networks and systems; performing independent assessments;
improving certification and accreditation of systems; updating policies and procedures; and,


                                             12
OFFICE   OF   INSPECTOR     GENERAL                    U.S.     DEPARTMENT       OF    ENERGY
FY 2009 OIG Performance Results




instituting a centralized incident response organization designed to eliminate duplicative
efforts. While the Department is taking steps to improve its cyber security program,
additional action is required to reduce the risk of compromise to information systems and
data. We have identified areas for improvement, including security planning and testing,
systems inventory, access controls, and configuration management.


 Objective 5:
 Concentrate investigative efforts on allegations of criminal and civil violations of law that
 adversely impact major Department programs and operations, with emphasis on
 maximizing the recovery of public resources and deterring future wrongdoing.

 Performance Measures:                                                      Accomplishments
 5a. Achieve an annual acceptance rate of 72% for cases presented for
     prosecutorial consideration.                                           Exceeded Goal
 5b. Ensure 75% of all cases opened focus on key areas of Department
     vulnerability, specifically procurement and grant fraud,
     environmental violations, Qui Tams, or computer crimes.                Exceeded Goal

                     Audits                    Inspections                  Investigations
 5a.            (Not applicable)             (Not applicable)           The OIG achieved
                                                                        a prosecutorial
                                                                        acceptance rate
                                                                        of 89%.
 5b.            (Not applicable)             (Not applicable)           Of the cases opened
                                                                        in FY 2009, 77%
                                                                        focused on key areas
                                                                        of vulnerability in the
                                                                        Department.
                                                                        The OIG obtained:
                                                                        ● 17 criminal
                                                                          indictments;
                                                                        ● 28 convictions;

                                                                        ● 2 pretrial diversions;

                                                                        ● 10 civil judgments.




                                               13
OFFICE     OF    INSPECTOR         GENERAL             U.S.     DEPARTMENT       OF   ENERGY
                                                                          FY 2009 OIG Performance Results




Performance Highlights:

An OIG investigation determined that a former Department security subcontractor at the
Strategic Petroleum Reserve switched to a self insurance health insurance program and billed
the Department for health insurance premiums that exceeded allowable self insurance health
insurance premiums. The subcontractor agreed to pay the $1 million to resolve the
allegations of fraud. The contractor also disallowed payment to the subcontractor which
resulted in a $3.9 million monetary recovery to the Department.

A joint investigation determined that a Romanian national hacked into unclassified
computers and servers at different Department facilities, including Sandia National
Laboratories, Lawrence Berkeley National Laboratory, Thomas Jefferson National
Accelerator Facility, and Oak Ridge National Laboratory. The individual was sentenced by
the First Instance Court, Arad, Romania, to 40 months probation and further ordered to
pay restitution and fees of approximately $225,821, of which $19,032 was returned to the
Department.

A joint investigation determined that a subcontractor official, along with other co-
conspirators, used the U.S. Postal Service to submit invoices and obtain payments from a
Federal Energy Regulatory Commission grantee for work not performed. Two grantee
employees were sentenced to 12 to 24 months in prison and 2 years supervised probation,
and were ordered to make restitution in excess of $5 million. Two associated subcontractor
personnel were also sentenced to 2 years probation, 200 hours of community service, and
fined $10,000 and $50,000. Another subcontractor employee was debarred, along with his
wife and two associated companies, after previous Mail Fraud conviction and sentence.


 Objective 6:
 Coordinate with other law enforcement agencies to establish effective networks in order to
 identify areas that are most vulnerable to waste, fraud, and abuse.

 Performance Measure:                                                          Accomplishment:
 6a. Ensure 25% of all cases opened were joint agency/task force
     investigations with external law enforcement agencies, such as the
     Federal Bureau of Investigation and other OIGs.                             Exceeded Goal

               Audits                    Inspections                       Investigations
 6a.     (Not applicable)             (Not applicable)           The OIG opened 126 cases
                                                                 during FY 2009; 29% of
                                                                 which were joint agency task
                                                                 force investigations.



                                               14
OFFICE   OF   INSPECTOR      GENERAL                     U.S.   DEPARTMENT             OF    ENERGY
FY 2009 OIG Performance Results




Performance Highlights:

A joint OIG investigation determined that a Federal grantee violated Federal rules and
procedures regarding cost transfers, cost allocations, and time and effort reporting over a
7-year period from January 2000 to December 2006. The grantee, a university, had
improperly transferred unallowable costs to Federal grants on or about the expiration date in
order to spend down remaining grant funds. The investigation also determined that the
university improperly charged Federal grants for summer salaries for researchers for unrelated
work. The university agreed to pay the Government $7.6 million to resolve these issues.

A joint investigation determined that several body armor companies knowingly participated
in the manufacturing and sale of defective body armor containing Zylon. The body armor
companies manufactured and sold the defective body armor to the Department as well as to
other Federal, State, local and tribal law enforcement agencies. Three companies agreed to
pay the Government in excess of $46 million to resolve allegations that it violated the False
Claims Act.

A joint investigation determined that a Laboratory employee misused his position to obtain
various electronic items, including laptop computers, which were subsequently sold for
personal gain. The employee pled guilty to two counts of Theft of Government Property
and two counts of False Claims and was sentenced to one year incarceration and two years
supervised probation. The person was also ordered to pay $113,490 in restitution.


 Objective 7:
 Heighten awareness of potential fraud among internal and external customers.

 Performance Measure:                                                      Accomplishment
 7a. Provide 28 fraud awareness briefings annually to Department
     and contractor employees and managers.                                 Exceeded Goal

                 Audits                 Inspections                    Investigations
 7a.        (Not applicable)           (Not applicable)          The OIG investigative
                                                                 personnel conducted 84 fraud
                                                                 awareness briefings in
                                                                 FY 2009.


Performance Highlights:
Our fraud awareness briefings were presented to over 8,000 Federal employees, contractor
officials, and fund recipients. These briefings are designed to discuss the process for


                                               15
OFFICE     OF    INSPECTOR        GENERAL                 U.S.   DEPARTMENT      OF     ENERGY
                                                                     FY 2009 OIG Performance Results




reporting fraud, waste and abuse to the OIG and to highlight priorities and initiatives of the
Office of Investigations. These briefings aid significantly in preventing fraud, waste, and
abuse by heightening awareness of fraud indicators and familiarizing officials with our
operations and oversight of Recovery Act funds. In FY 2010, the OIG will continue to
concentrate its efforts on educating the community to potential fraud indicators as a means
of determining fraud, waste and abuse.


Goal 3
Support the Taxpayer

 Objective 8:
 Provide the Department and the public with an effective and efficient mechanism to
 report waste, fraud, and abuse.

 Performance Measures:                                                     Accomplishments
 8a. Operate the OIG Hotline in a manner that ensures 90% of
     Hotline complaints warranting further action begin processing
     within 7 days of receipt.                                              Exceeded Goal
 8b. Forward 90% of the complaints identified for referral to
     Department or other agency management within 14 days of
     initiation of the case.                                                Exceeded Goal

              Audits                       Inspections                      Investigations
 8a.     (Not applicable)     99% (398 of 402 complaints as of              (Not applicable)
                              September 30, 2009) complaints began
                              processing within 7 days.
 8b.     (Not applicable)     98% (164 of 168 complaints as of              (Not applicable)
                              September 30, 2009) complaints were
                              referred to the Department within
                              14 days.




                                              16
OFFICE   OF   INSPECTOR      GENERAL                   U.S.   DEPARTMENT          OF    ENERGY
FY 2009 OIG Performance Results




 Objective 9:
 Make the public aware of OIG reports.

 Performance Measure:                                                              Accomplishment
 9a. Ensure that all OIG public reports that were identified for
     inclusion on the Internet are posted within three working days of
     submission to the Secretary, unless otherwise specified by the
     Inspector General.                                                                Met Goal

                Audits             Inspections             Investigations    Resource Management
 9a.      (Not applicable)        (Not applicable)        (Not applicable)   All public reports were
                                                                             posted within three work
                                                                             days and an early alert
                                                                             system provided
                                                                             approved subscribers
                                                                             advance notification of
                                                                             the release of the reports.



 Objective 10:
 Provide a structure for ensuring a skilled and efficient workforce.

 Performance Measures:                                                            Accomplishments
 10a. Ensure that all auditors meet the training requirements as
      specified by generally accepted Government Auditing Standards.                   Met Goal
 10b. Ensure that all investigators meet the training requirements as
      specified by Federal law enforcement and other related
      investigative standards.                                                         Met Goal
 10c. Ensure that all inspectors meet the training requirements as
      specified by the President’s Council on Integrity and Efficiency
     “Quality Standards for Inspections.”                                              Met Goal




                                                     17
OFFICE     OF    INSPECTOR        GENERAL                      U.S.    DEPARTMENT        OF   ENERGY
                                                                   FY 2009 OIG Performance Results




                  Audits                    Inspections                 Investigations
 10a-c.   100% of the auditor        100% of the inspections      100% of the Investigators
          staff met the statutory    staff met the PCIE           met their training
          requirement for            training standards.          requirements including
          continuing education.                                   those prescribed
                                                                  by statute.


Performance Highlights

The OIG-established training requirements ensure that auditors, inspectors, and
investigators receive required or otherwise appropriate training for their specialty. These
requirements are stated in each employee’s individual development plan. Each organization
designated a training coordinator position to: (1) monitor the allocation and use of training
funds; (2) ensure required training is scheduled and completed; (3) integrate developmental
and training requirements into the planning process; and, (4) ensure employees have
individual development plans.




                                             18
OFFICE    OF   INSPECTOR    GENERAL                   U.S.   DEPARTMENT         OF    ENERGY
Relationship with the Department of Energy

T    he work of the OIG continues to focus on the vital areas stated in the Department’s
     strategic plan. The Department’s strategic themes of energy security, nuclear security,
scientific discovery and innovation, environmental responsibility, and management
excellence are key areas for OIG reviews and investigations. The OIG aligns its reviews
along the same themes, with emphasis on key challenges facing the Department. The OIG
identification of key challenges brings an even sharper delineation of issues for
Departmental focus. The following are the OIG-identified Management Challenges for
FY 2010:
   ■   Contract Administration
   ■   Cyber Security
   ■   Energy Supply
   ■   Environmental Cleanup
   ■   Safeguards and Security
   ■   Stockpile Stewardship
   ■   Recovery Act Implementation
   ■   Human Capital Management

In addition to responding to requests for special reviews or investigations from the Secretary
and Congress, the OIG continuously performs reviews at the Department through various
planned audits and inspections.


OIG Strategic Goal
The OIG’s strategic goal is to perform a robust review program that provides timely,
relevant performance information and recommendations to improve the Department’s
programs in relation to:
   1. The President’s Management Agenda;
   2. The Secretary’s priorities; and,
   3. OIG-identified Management Challenges.

To ensure the integrity of the Federal and contractor workforce, the OIG completes
statutory mandates, recovers monies, and provides opportunities for savings.




                                              19
OFFICE    OF   INSPECTOR       GENERAL                U.S.    DEPARTMENT        OF   ENERGY
THIS PAGE INTENTIONALLY LEFT BLANK
FY 2010 Funding Priorities
OIG Funding by Strategic Goal


T   he OIG focuses its resources toward the most significant mission-related priorities and
    challenges facing the Department. The OIG’s overarching strategic goal supports the
Department’s mission priorities and the President's Management Agenda.


                                            FY 2009          FY 2010          FY 2010
Strategic Goal                            Appropriated      Requested       Appropriated

The OIG’s Strategic                          $51.9              $51.4          $51.9
Goal is to operate a robust review           million            million        million
program and provide timely
performance information and
recommendations to facilitate
the Department’s efforts to:
(1) implement the President’s
Management Agenda;
(2) resolve management challenges;
(3) execute the Secretary’s priorities;
and, (4) ensure the integrity of the
Federal and contractor workforce,
while ensuring that the OIG
completes statutory mandates,
recovers monies, and provides
opportunities for savings.


The OIG started FY 2010 under a one month continuing resolution with funding held
to FY 2009 levels. The OIG will receive the full FY 2010 appropriation, which is
$ 0.5 million above the FY 2010 budget request. The additional funding will help to
ensure that the OIG continues to successfully meet its statutory requirements; and,
conduct independent audits, inspections, investigations, and other reviews of the
Department’s programs in a timely and efficient manner.




                                                 21
OFFICE     OF   INSPECTOR        GENERAL                 U.S.   DEPARTMENT    OF   ENERGY
THIS PAGE INTENTIONALLY LEFT BLANK
FY 2010 Performance Plan

O      ur work is important to the Department’s success in fulfilling its Strategic Plan to
       address the energy, environmental, and nuclear security challenges and mission-related
goals. The OIG must ensure that its resources and activities cover the issues and concerns
most critical to the Department. This Performance Plan identifies the FY 2010 goals,
objectives, and measures that will help the OIG to better plan its priorities and continue to
assist the Department in identifying and taking corrective action to improve areas most
vulnerable to waste, fraud, and mismanagement. This Performance Plan also describes the
specific projects and activities the OIG plans to undertake during FY 2010 to continue
identifying opportunities for cost savings and operational efficiencies, and to continue to
return hard dollars to the Department and the U.S. Treasury.


FY 2010 Performance Measures
For FY 2010, the OIG will measure its accomplishments against the following
performance measures:


Goal 1
Promote the President’s Management Agenda and the Mission Priorities of the
Secretary and Congress

 Objective 1:
 Conduct reviews seeking positive change in the Department relating to the
 implementation of the initiatives in the President’s Management Agenda, the Secretary’s
 Priorities, and the OIG-identified Management Challenges.

 Performance Measures:
 1a. By the end of FY 2010, complete reviews that address each Presidential, Secretarial, and
     OIG initiative, priority, and/or challenge as identified in FY 2010.
 1b. At least 30% of inspection reports will address safety or security-related topics.




                                                 23
OFFICE    OF   INSPECTOR       GENERAL                     U.S.   DEPARTMENT          OF   ENERGY
                                                                            FY 2010 Performance Plan




Goal 2
Improve economy and efficiency and reduce waste, fraud, and abuse within
the Department

 Objective 2:
 Concentrate OIG efforts on issues that have the greatest impact and usefulness to
 the Department.

 Performance Measures:
 2a. Ensure that every performance review includes an analysis of program accomplishments
     and the use of metrics to measure results.
 2b. Ensure that 57% of all performance audits include recommendations leading to
     demonstrable cost savings, program efficiencies, and/or funds put to better use.
 2c. Complete five follow-up reviews annually to determine the status and efficacy of
     corrective actions.
 2d. By June 30, 2010, complete an annual risk-based programmatic assessment that considers
     OIG institutional knowledge; past program performance; funding levels; Presidential,
     Secretarial, and congressional concerns; Recovery Act initiatives; and, input from
     Department program managers.
 2e. Ensure 80% of all planned performance audits address high-risk areas as identified in the
     OIG annual risk-based programmatic assessments.
 2f. Strive for the Department to accept at least 79% of OIG report recommendations.
 2g. Ensure that 10% of all planned inspections address Recovery Act-funded activities.




                                              24
OFFICE   OF   INSPECTOR      GENERAL                    U.S.   DEPARTMENT          OF   ENERGY
FY 2010 Performance Plan




 Objective 3:
 Provide timely information to the Department so that prompt action can be taken to
 improve program performance.

 Performance Measures:
 3a. Issue 80% of audit reports no later that 60 days following receipt of
     management comments.
 3b. Ensure that the average time to issue Investigative Reports to Management is 50 days or
     less following final resolution of criminal, civil, and administrative investigations.
 3c. Issue 70% of inspection reports (on average) within 60 days of receiving
     management comments.


 Objective 4:
 Strengthen financial management and cyber security through completion of mandatory
 reviews in accordance with OMB and other applicable requirements.

 Performance Measures:
 4a. Complete annually, by the established due date, the Department’s Consolidated Financial
     Statement audits to determine whether the financial statements are free from material
     misstatement.
 4b. By September 30, 2010, review the Department’s classified and unclassified information
     security system programs in accordance with the Federal Information Security
     Management Act of 2002.
 4c. Initiate 10 “Statement of Costs Incurred and Claimed” audits annually to assess internal
     controls over costs claimed by the Department’s major contractors.




                                               25
OFFICE     OF   INSPECTOR     GENERAL                    U.S.   DEPARTMENT       OF   ENERGY
                                                                            FY 2010 Performance Plan




 Objective 5:
 Concentrate investigative efforts on allegations of criminal and civil violations of law that
 adversely impact major Department programs and operations, with emphasis on
 maximizing the recovery of public resources and deterring future wrongdoing.

 Performance Measures:
 5a. Achieve an annual acceptance rate of 72% for cases presented for prosecutorial
     consideration, with an enhanced focus on Recovery Act cases.
 5b. Ensure 75% of all cases opened focus on key areas of Department vulnerability, specifically
     procurement and grant fraud, environmental violations, Qui Tams, or computer crimes.



 Objective 6:
 Coordinate with other law enforcement agencies to establish effective networks in order to
 identify areas that are most vulnerable to waste, fraud, and abuse.

 Performance Measure:
 6a. Ensure 25% of all cases opened were joint agency/task force investigations with external
     law enforcement agencies, such as the Federal Bureau of Investigation and other OIGs
     including other agencies with Recovery Act funding.



 Objective 7:
 Heighten awareness of potential fraud among internal and external customers.

 Performance Measure:
 7a. Provide 35 fraud awareness briefings annually to Department and contractor employees
     and managers, with special emphasis on Recovery Act-related fraud.




                                              26
OFFICE   OF   INSPECTOR      GENERAL                    U.S.    DEPARTMENT         OF   ENERGY
FY 2010 Performance Plan




Goal 3
Support the Taxpayer

 Objective 8:
 Provide the Department and the public with an effective and efficient mechanism to
 report waste, fraud, and abuse.

 Performance Measures:
 8a. Operate the OIG Hotline in a manner that ensures 90% of Hotline complaints
     warranting further action begin processing within 7 days of receipt.
 8b. Forward 90% of the complaints identified for referral to Department or other agency
     management within 14 days of initiation of the case.
 8c. Complete Whistleblower complaints within 180 days.



 Objective 9:
 Make the public aware of OIG reports.

 Performance Measure:
 9a. Ensure that all OIG public reports that are identified for inclusion on the Internet are
     posted within three working days of submission to the Secretary, unless otherwise specified
     by the Inspector General.



 Objective 10:
 Provide a structure for ensuring a skilled and efficient workforce.

 Performance Measures:
 10a. Ensure that all auditors meet the training requirements as specified by generally accepted
      Government Auditing Standards.
 10b. Ensure that all investigators meet the training requirements as specified by Federal law
      enforcement and other related investigative standards.
 10c. Ensure that all inspectors meet the training requirements as specified by the President’s
      Council on Integrity and Efficiency “Quality Standards for Inspections.”




                                                27
OFFICE     OF   INSPECTOR     GENERAL                     U.S.   DEPARTMENT          OF   ENERGY
THIS PAGE INTENTIONALLY LEFT BLANK
Our Organization
The OIG is organized into three major functional areas and a corporate support office:
   ■   Office of Audit Services
   ■   Office of Investigations
   ■   Office of Inspections and Special Inquiries
   ■   Office of Resource Management



OIG field offices are located at key Department sites around the Nation:




                                              29
OFFICE     OF   INSPECTOR     GENERAL                U.S.   DEPARTMENT       OF   ENERGY
                                                              Our Organization: Office of Audit Services




Office of Audit Services

The Office of Audit Services (OAS) provides internal and contracted audit activities for
Department programs and operations, including the NNSA. The Office strives to provide
reliable, credible financial and performance information to senior management, the
Congress, and the taxpayers. The Office is organizationally aligned with the Department’s
programmatic lines in national security and science; energy; and, environment, technology,
corporate and financial operations. The Office will concentrate its efforts on economy,
efficiency and program reviews, while maintaining sound oversight of the financial
statement audit. This organizational structure helps to ensure that audit work provides
comprehensive coverage over Department organizations, programs, and operations while
meeting the Department's evolving needs.

With the passage of the Recovery Act, the oversight responsibilities of OAS dramatically
increased. The Department received approximately $40 billion in Recovery Act funding for
various energy, environmental, and science programs and initiatives. To protect the interests
of the American taxpayers and ensure accountability and transparency, OAS will devote a
significant amount of audit resources to fulfill its Recovery Act oversight responsibilities.

The Office uses a risk-based process for identifying areas for audit coverage. Specific areas
with known or emerging risks and the greatest vulnerabilities are identified. This process
leads to conducting program performance reviews that address the President's Management
Agenda; the Department’s Strategic Themes and Goals; OIG-identified management
challenges; as well as Congressional interests. A significant portion of audit resources is
directed toward meeting OIG statutory audit responsibilities in the financial and
information technology areas.

The OAS has scheduled 85 performance audits to start in FY 2010. Many non-
discretionary tasking from external sources impact the OAS workload and may require
postponement or cancellation of planned audits to accommodate these demands. Following
is a summary of the audits’ objectives that are scheduled to begin in FY 2010, grouped by
the Department's Business Lines. The planned audit workload is summarized later in
this plan.


National Security and Science
To protect our national security by applying advanced science and nuclear technology to the
Nation's defense, and to contribute to the protection of the U.S. national and economic
security by providing world-class scientific research capacity and advancing scientific
knowledge, the following audits will determine whether the:




                                             30
OFFICE   OF   INSPECTOR      GENERAL                  U.S.   DEPARTMENT             OF     ENERGY
Our Organization: Office of Audit Services




     ■   LANL is effectively managing the TA-21 Deactivation and Demolition projects
         (A10AL001)
     ■   NNSA’s contractors have minimized workers’ compensation costs by implementing
         effective disability management and return to work programs (A10LL005)
     ■   Office of Science achieved the goals and objectives of the NOvA Detector Project
         (A10RA004)
     ■   SNL has fully implemented an Integrated Safety Management system (A10AL004)
     ■   Recovery Act projects at LBNL are meeting program goals and objectives (A10RA008)
     ■   NNSA is completing the W76 refurbishment within scope, schedule and cost
         parameters (A10AL002)
     ■   Nevada Test Site is effectively managing its environmental cleanup activities
         (A10RA009)
     ■   Office of Science achieved the goals and objectives of the NSLS-II Project
         (A10RA006)
     ■   Secure Transportation Asset has the capability to meet mission requirements
         (A10YT010)
     ■   Department conducted timely and complete Nuclear Explosive Safety Studies and
         evaluations of nuclear explosive operations (A10LV009)
     ■   NNSA is adequately managing and accounting for high explosives and classified
         nuclear weapons parts (A10AL003)
     ■   Recovery Act projects at SLAC are meeting program goals and objectives (A10RA007)
     ■   Office of Science achieved the goals and objectives of the Energy Frontier Research
         Centers (A10RA003)
     ■   NSTec Internal Audit Department conducted audits that met both quality and
         professional auditing standards (A10LV007)
     ■   Highly Enriched Uranium Materials Facility’s capacity will meet future storage
         requirements (A10YT011)
     ■   NNSA has the capability to meet increased dismantlement requirements (A10LV008)
     ■   LLNL and LANL are meeting NNSA requirements in mitigating beryllium exposure
         to its workers and surrounding community (A10LL006)
     ■   Y-12 is effectively managing its environmental cleanup activities (A10RA010)
     ■   Department achieved the goals and objectives of the Advanced Research Projects
         Agency – Energy Program (A10RA002)




                                                 31
OFFICE       OF   INSPECTOR           GENERAL            U.S.    DEPARTMENT        OF    ENERGY
                                                               Our Organization: Office of Audit Services




   ■   Office of Science achieved the goals and objectives of the Decommissioning and
       Demolition activities at its facilities (A10RA005)
   ■   Contract and grant recipients are using State Energy Program funds for their intended
       purpose and the use of funds is transparent to the public (A10RA001 and
       A10RA011).


Energy
To contribute to the protection of the nation’s economic security by promoting a diverse
supply and delivery of reliable, clean, and affordable energy, the following audits will
determine whether the:
   ■   EERE is effectively administering its Solar Technology Pathway Partnerships Program
       (A10DN001)
   ■   Innovative Technologies Loan Guarantee Program has established and implemented
       effective underwriting and loan servicing controls to minimize the Federal
       Government’s risk of loss (A10RA017)
   ■   Department has developed an internal control system and risk mitigation strategy that
       will address the elements of transparency, accountability and reportability for the
       Advanced Research Projects Agency for Energy (A10RA026)
   ■   Uranium Management program is being managed in a manner that protects the
       Department’s and taxpayers’ interests (A10OR006)
   ■   Department is effectively managing its grants and cooperative agreements awarded
       under the Vehicle Technologies Program (A10RA016)
   ■   EERE’s Building Technologies Program has effectively managed projects funded under
       the Recovery Act (A10RA030)
   ■   Department is administering an effective large scale energy storage technology
       development program (A10OR005)
   ■   WAPA has internal controls in place to implement its new borrowing authority
       (A10RA013)
   ■   EERE’s Geothermal Technologies Program has effectively managed projects funded
       under the Recovery Act (A10RA029)
   ■   Energy Efficiency and Conservation Block Grants Program controls are sufficient to
       ensure that grants are administered in an efficient and effective manner (A10RA027)
   ■   Advanced Technology Vehicle Manufacturing Loan Program has established and
       implemented effective underwriting and loan servicing controls to minimize the
       Federal Government’s risk of loss (A10HQ004)



                                              32
OFFICE    OF   INSPECTOR     GENERAL                   U.S.   DEPARTMENT             OF     ENERGY
Our Organization: Office of Audit Services




     ■   EERE has internal controls in place to award and administer funding for Integrated
         Biorefineries (A10RA012)
     ■   BPA is meeting national goals for effectively integrating wind into its transmission
         system (A10DN002)
     ■   Industrial Technologies Program’s proven technologies are being utilized by industry
         (A10HQ003)
     ■   Department established internal controls over its Fossil Energy Research and
         Development cooperative agreements to meet the goals of the Recovery Act
         (A10RA024)
     ■   Internal controls were in place and operating as intended over the Clean Cities
         Alternative Fuels Pilot Program (A10RA018)
     ■   Department has implemented internal controls over the States and territories receiving
         funding through the Appliance Rebate Program (A10RA019)
     ■   Internal controls were in place and operating as intended over the Smart Grid
         Investment Grant and the Smart Grid Demonstration Programs (A10RA020)
     ■   Department ensured that Clean Coal Power Initiative cooperative agreements were
         managed in accordance with the Recovery Act (A10RA021)
     ■   EERE has effectively managed research, development and demonstration projects
         funded under the Recovery Act (A10RA028)
     ■   Department established internal controls over its Industrial Carbon Capture
         cooperative agreements to meet the goals of the Recovery Act (A10RA023)
     ■   EERE Vehicle Technologies Program has an effective approach for managing the
         Advanced Battery and Hybrid Components Program (A10RA025)
     ■   Contract and grant recipients are using Weatherization Assistance Program funds for
         their intended purpose (A10RA014, A10RA015 and A10RA022).


Environment, Technology, Corporate and
Financial Management
To protect the environment by providing a responsible resolution to the environmental
legacy of the Cold War and by providing for the permanent disposal of the Nation's high-
level radioactive waste, the following audits will determine whether the:
     ■   Department met its goals and objectives for environmental remediation projects at
         ORNL (A10RA033)
     ■   Global Threat Reduction Initiative activities at non-NNSA sites are meeting mission
         objectives in an economical manner (A10ID005)


                                                 33
OFFICE       OF   INSPECTOR           GENERAL             U.S.   DEPARTMENT        OF   ENERGY
                                                                Our Organization: Office of Audit Services




  ■   Office of River Protection is fully addressing the issues identified by the External
      Flowsheet Review Team (A10RL007)
  ■   Department achieved its goals and objectives for preparing the Gaseous Diffusion
      Plant Facilities for demolition (A10RA034)
  ■   Office of Environmental Management is effectively using Recovery Act funding to
      achieve the goals and objectives of the River Corridor Closure project (A10RA039)
  ■   Department is effectively managing the Mixed Oxide Fuel Fabrication Facility project
      (A10ET002)
  ■   Office of River Protection is effectively using Recovery Act funding to achieve the
      goals and objectives for tank farm infrastructure upgrades (A10RA043)
  ■   Department’s Fuel Cycle Research and Development program is achieving its goals
      (A10ID003)
  ■   Office of Environmental Management’s Richland Operations Office is effectively using
      Recovery Act funding to achieve the goals and objectives of the Plutonium Finishing
      Plant Remediation project (A10RA040)
  ■   Richland Operations Office’s Groundwater Remediation Project is effectively using
      Recovery Act funding to achieve the goals and objectives of groundwater remediation
      at the Hanford Site (A10RA044)
  ■   Department achieved the goals and objectives of Waste and Material Disposition
      activities at the Savannah River Site (A10RA046)
  ■   Department has effectively implemented an Integrated Safety Management system
      (A10RL006)
  ■   Department is achieving its Recovery Act goals for projects at the Carlsbad Field
      Office. (A10RA037)
  ■   Department effectively used performance measures and fees to appropriately reward
      contractor performance at the Idaho National Laboratory (A10ID004)
  ■   Richland Operations Office is effectively using Recovery Act funding to achieve the
      goals and objectives of the Solid Waste Program (A10RA041)
  ■   Department is achieving its Recovery Act goals for projects at the Idaho Operations
      Office (A10RA038)
  ■   Office of Environmental Management’s Richland Operations Office is effectively using
      Recovery Act funding to achieve the goals and objectives of the remediation of the
      Hanford Site Central Plateau (A10RA042)
  ■   Department has designated disposition pathways for surplus nuclear materials
      (A10SR009)




                                              34
OFFICE    OF   INSPECTOR     GENERAL                    U.S.   DEPARTMENT             OF     ENERGY
Our Organization: Office of Audit Services




     ■   Department has adequately considered potential future uses for the Pretreatment
         Engineering Platform (A10RL008)
     ■   Department achieved the goals and objectives of Decontamination and
         Decommissioning activities at the Savannah River Site (A10RA045)
     ■   States are using State Energy Program funds for their intended purpose and Recovery
         Act goals are being met (A10RA035, A10RA036 and A10RA047).

To assure the American public that the Department is fiscally responsible in carrying out its
mission; promotes effective contract management; ensures the Department has metrics in
place and uses them to manage its programs and activities effectively; and, promotes the
safety and health of the Department's workforce, the following audits will determine
whether the:
     ■   Department’s facility contractors ensured that funds provided by the Recovery Act
         were appropriately tracked and transparent to the public and the benefits of the funds
         were reported clearly, accurately, and in a timely manner (A10RA049)
     ■   PAGE system is being developed and implemented in accordance with Departmental
         and Federal requirements (A10RA048)
     ■   Technology research funded by the Recovery Act is being effectively managed and
         transferred into the private sector (A10RA031)
     ■   Department had effectively implemented information technology asset management
         systems designed to satisfy Federal and Department requirements, goals and mission
         needs (A10TG010)
     ■   Entities connected to the Nation’s power grid have adequately implemented cyber
         security standards mandated by the Federal Energy Regulatory Commission
         (A10TG013)
     ■   Department considers prior performance when making new non-facilities contract,
         grant and financial assistance awards (A10CP001)
     ■   Emergency Communications Network is meeting performance expectations to provide
         the capability to manage emergency situations involving NNSA assets and interests
         (A10TG014)
     ■   Department had implemented an effective system development and management
         process that satisfied Federal and Department requirements, goals and mission needs
         (A10TG011)
     ■   Department is adequately managing the risk of insider access to unclassified and
         classified information systems and the information that they contain (A10TG012)
     ■   Department is effectively managing infrastructure modernization and deferred
         maintenance projects, including those funded by the Recovery Act, to promote safety
         and maximize efficiency (A10RA032)


                                                35
OFFICE       OF   INSPECTOR           GENERAL            U.S.   DEPARTMENT        OF   ENERGY
                                                               Our Organization: Office of Audit Services




   ■   Department has corrected previously identified issues and effectively managed its
       electronic records (A10TG015)
   ■   Security controls over Recovery Act systems were adequately designed and operating
       effectively (A10RA050)
   ■   Department adequately managed the development and implementation of the Smart
       Grid to ensure operational effectiveness and cyber security controls were in place
       (A10RA051).

To contribute to the effectiveness of the Department's financial management, the following
audits will be performed:
   ■   A10FN001 – Department of Energy’s Consolidated Financial Statement FY 2010
   ■   A10FN002 – FERC's Financial Statement FY 2010
   ■   A10FN003 – Decommissioning and Decontamination Fund FY 2010 GMRA
   ■   A10FN004 – FMFIA FY 2010
   ■   A10FN005 – IT Management Letter FY 2010
   ■   A10FN006 – Financial Management Letter FY 2010
   ■   A10FN007 – Isotope Production and Applications Financial Statement FY 2010
   ■   A10FN008 – Southwestern Power Administration Financial Statement FY 2010




                                              36
OFFICE    OF   INSPECTOR     GENERAL                   U.S.   DEPARTMENT             OF     ENERGY
Our Organization: Office of Inspections and Special Inquiries




Office of Inspections and Special Inquiries

The Office of Inspections and Special Inquiries (the Office) conducts performance and
allegation-based inspections, as well as special inquiries in response to concerns raised by
Congress, senior Department managers, and others. The Office also manages the OIG
Hotline, Management Referral Systems and Recovery Act Whistle Blower Program.

Although the Office plans a significant portion of its annual inspection work, it retains
flexibility in order to be able to promptly address concerns and allegations received during
the course of the year. When planning its performance inspection work, the Office
identifies and prioritizes topics responsive to the President’s Management Agenda, the
Secretary’s Mission Priorities, and the Department’s Management Challenges as identified by
the OIG. Inspections are initiated with consideration given to their significance and
potential impact on Department programs and operations.

In light of the considerable oversight requirements specified by the Recovery Act and the
heighten concerns over homeland security, the Office is focusing its resources to address
projects concerning Recovery Act, corporate management, and critical safety and security
issues affecting Department programs and operations. Following is a summary of the
inspections’ objectives that are scheduled to begin in FY 2010, grouped by the Department's
Business Lines.


Safety
To protect the safety of Federal and contractor employees, as well as members of the public,
the following inspections will determine whether:
     ■   Federally regulated chemical agents at selected sites are being purchased, handled,
         stored, and destroyed appropriately to ensure that such chemicals are not being used
         for inappropriately or illegally.
     ■   Controlled substances at selected Department sites are being managed appropriately to
         prevent their misuse or misappropriation.
     ■   The Department is properly inventorying and controlling its military type explosives
         to ensure they are stable while in use or in storage.
     ■   A selected site is appropriately managing the Radiation Protection Program at the site.
     ■   Low-level radioactive waste, class C explosives, cyanide and classified materials at a
         selected site are being properly monitored, accounted for and disposed of.




                                                                37
OFFICE       OF    INSPECTOR           GENERAL                       U.S.   DEPARTMENT   OF   ENERGY
                                                     Our Organization: Office of Inspections and Special Inquiries




Security
To strengthen the national security of the United States of America and the security of
Department site operations, the following inspections will determine if:
   ■   The Nuclear National Security Administration’s Megaports Initiative is being
       effectively managed.
   ■   Workers hired through temporary labor agencies receive any screening by the
       Department; or is Department relying on the providing agency’s assurance that all
       temporary workers have been screened and have legal employment status.


Energy/Environmental
To promote the efficiency of energy technologies, the following inspections will
determine whether:
   ■   The terms and conditions of a Cooperative Agreement with the Office of Fossil
       Energy are being met to evaluate the durability of a Hydrogen-fueled Internal
       Combustion Engine, and if intended recommendations were developed and
       implemented to reduce durability risk factors.
   ■   Management of selected solicitations for Clean Coal Power Initiative projects has been
       effective in developing Clean Coal technologies.


Corporate Management
To promote excellence through sound management and contracting practices, the following
inspections will determine whether:
   ■   A contractor at a selected site adhered to the Organization Conflict of Interest
       provisions of their contract with the Nuclear National Security Administration.
   ■   Appropriate internal controls in the purchasing process are in place at a Department
       site to ensure that Accounts Payable verifies receipt of purchased items.
   ■   Government Furnished Property is disposed of within a timely manner to ensure that
       the property is properly managed and accounted for at selected Department sites.
   ■   Critical fire stations are understaffed and, if the fire station at a selected Department
       site is inappropriately using on-duty Department-owned and maintained equipment
       in conjunction with fire station personnel for routine patient transports to facilities
       outside of the County.




                                                38
OFFICE     OF   INSPECTOR      GENERAL                      U.S.     DEPARTMENT               OF    ENERGY
Our Organization: Office of Inspections and Special Inquiries




     ■   Former site employees who received severance pay were subsequently rehired to
         perform the same or similar job functions, but were not required to repay appropriate
         severance money when rehired.
     ■   A selected site is awarding consulting contracts for work that can be performed by site
         personnel.
     ■   The Office of Nuclear Energy’s Radioisotope Power Systems Program at a selected site
         has appropriate milestones and measurable deliverables needed to establish an
         alternative analytical chemistry capability.


Recovery Act
To aid in the prevention and detection of waste, fraud, and abuse, and assist in providing
transparency for distributing and using Recovery Act-related funds, the following
inspections will determine:
     ■   The effectiveness of the Department’s project management oversight concerning
         performance expectations at a selected site.
     ■   Whether internal controls are in place to ensure that Decommissioning and
         Demolition work is completed safely.
     ■   Whether the Department is providing sufficient opportunities for Small Businesses to
         compete for contracts awarded and funded under the Recovery Act.
     ■   Grants for geothermal development are being managed in a manner that ensures
         Recovery Act requirements are being met, to include receipt of money for property
         placed in service or under construction during 2009 and 2010.
     ■   Whether medical certifications for contractors (funded by the Recovery Act) at a
         selected site is adequate to ensure the safety of the individual and the public.


Implementation Reviews
To assure Department management is taking corrective actions to improve programs,
processes, and operations, we will conduct reviews to determine whether the Department
has effectively implemented recommendations contained in the following prior reports
on the:
     ■   Review of Security at the Strategic Petroleum Reserve.
     ■   Inspection on Recording of Telephone Conversations at a Selected Department Site.
     ■   Inspection on Out-Processing of Employees at a Selected Department Site.
     ■   Inspection on Oversight of Shock Sensitive Chemicals at a Selected Department Site.


                                                                39
OFFICE       OF    INSPECTOR           GENERAL                       U.S.   DEPARTMENT   OF   ENERGY
                                                               Our Organization: Office of Investigations




Office of Investigations
The Office of Investigations (OI) conducts investigations into alleged violations of law that
impact Department programs, operations, facilities, and personnel. Priority is given to
investigations of suspected violations of criminal and civil statutes, as well as serious
administrative misconduct. Criminal Investigators within OI work closely with Department
of Justice (DOJ) prosecutors and other Federal, State, and local law enforcement
organizations utilizing a full range of law enforcement authorities, such as carrying firearms,
applying for and executing search warrants, and making arrests. The work of OI, however,
extends beyond the conduct of investigations – namely, the office identifies opportunities
for improving the economy and efficiency of Departmental programs and operations by
issuing reports that recommend positive change. OI’s accomplishments are measured by
recommendations accepted by management, investigations accepted for prosecutive action,
cooperative efforts with other law enforcement agencies, and proactive initiatives. Through
accomplishments in those areas, the office plays a major role assisting the OIG in promoting
the efficient, effective, and economical operation of the Department, including NNSA.


National Program Area Initiative
The work performed by OI is primarily reactive in nature and has the potential of reaching
into any Departmental major program area, including NNSA. The establishment of the
National Program Area Initiative has afforded OI the opportunity to identify program areas
in the Department most vulnerable to fraud, waste, and abuse and to proactively dedicate a
significant portion of investigative resources, to include special agent training, liaison
development, and specialized studies, to those program areas. OI’s National Program Area
Initiative concentrates on four areas, which are also tied into the Department’s strategic
themes as identified in the 2009 Strategic Plan. The four areas are: (1) contract and grant
fraud; (2) environment, safety, and health (ES&H) violations; (3) Qui Tams; and,
(4) technology crimes. One of OI’s goals is to have 75 percent of its open investigations
address at least one of the four areas. In FY 2010, work on the National Program Area
Initiative will continue to move forward as plans are implemented and expanded.


Contract and Grant Fraud
During FY 2009, OI continued to identify and interact with key Department and NNSA
procurement personnel, as well as conduct fraud awareness briefings with special emphasis
on procurement and grant fraud. A majority of the Department’s budget is expended on
contracts and grants; therefore, the opportunity for fraud to occur or exist within various
Department programs is significant. Given the continuing potential for significant fraud, to
include potential fraud in the Department’s Loan Guarantee Program, and the Department’s



                                             40
OFFICE   OF   INSPECTOR      GENERAL                   U.S.   DEPARTMENT             OF    ENERGY
Our Organization: Office of Investigations




responsibility to oversee the $25 billion Advanced Technology Vehicle Loan Program, in
FY 2010, OI will continue to: (1) expand fraud awareness briefings throughout the
Department, including NNSA; (2) prioritize contract and grant fraud investigations, placing
emphasis on cases with a potential high dollar recovery to the Department; (3) work with
established contract and grant task forces, and identify opportunities to establish new task
forces with DOJ involvement; (4) coordinate and pursue leads referred by the OIG Offices
of Audit Services and Inspections; and, (5) identify and pursue contract and grant fraud
investigations proactively. An example of success in the grant fraud arena is as follows:
     ■   An investigation determined that Washington Savannah River Company withheld
         pension contribution information from the Department during negotiations for the
         management and operating contract at the Department’s Savannah River Site. Failure
         to disclose this information had a net effect of making additional monies available for
         the firm’s award fee pool. The contractor agreed to pay in excess of $2.4 million to
         resolve allegations of fraud. The settlement also required the contractor to abandon a
         claim for fee payment of $35.6 million from the Department, making the total value
         of the settlement to the Government in excess of $38 million.
     ■   An OIG investigation determined that a former Department security subcontractor at
         the Strategic Petroleum Reserve switched to a self insurance health insurance program
         and billed the Department for health insurance premiums that exceeded allowable self
         insurance health insurance premiums. The subcontractor agreed to pay the $1 million
         to resolve the allegations of fraud. During a previous reporting period, the contractor
         disallowed payment to the subcontractor which resulted in a $3.9 million monetary
         recovery to the Department.
     ■   A joint OIG investigation determined that a Federal grantee violated Federal rules and
         procedures regarding cost transfers, cost allocations, and time and effort reporting over
         a 7-year period from January 2000 to December 2006. The grantee, a university, had
         improperly transferred unallowable costs to Federal grants on or about the expiration
         date in order to spend down remaining grant funds. The investigation also
         determined that the university improperly charged Federal grants for summer salaries
         for researchers for unrelated work. The university agreed to pay the Government
         $7.6 million to resolve these issues.


Environment, Safety, and Health (ES&H)
The Department’s program for cleaning up the environmental contamination caused by
nuclear weapons research, production, and testing is estimated to cost over $200 billion over
the next several decades. With the end of the Cold War, the mission to clean up the
environment has become more essential as a result of more than 50 years of nuclear defense
work and energy research. The OIG has identified environmental cleanup as one of three
Department FY 2009 management challenges that is likely to persist well into the future.
OI’s ES&H program area supports the Department’s Environmental Responsibility strategic


                                                 41
OFFICE       OF    INSPECTOR           GENERAL            U.S.   DEPARTMENT        OF   ENERGY
                                                                 Our Organization: Office of Investigations




theme. Ensuring the safety and health of the public and the Department’s workers is a top
priority. In FY 2010, OI will continue to: (1) work with established ES&H task forces; (2)
identify opportunities to establish new task forces; and, (3) develop and maintain ES&H
contacts in the Department, NNSA, and other Government agencies.


Qui Tams
As a rule, Qui Tam-related allegations are complex and staff-hour intensive. As of
September 30, 2009, OI had 16 open Qui Tam investigations with claims alleging fraud of
$295.6 million. These investigations often have a major impact on the Department and
generally involve significant allegations of fraud involving millions of dollars and multiple
Federal agencies. OI continues to work closely with the DOJ’s Commercial Litigation
Branch in the investigation and analysis of Qui Tam cases. Following is an example of a
success involving an OIG Qui Tam investigation:
    ■   A joint investigation determined that several body armor companies knowingly
        participated in the manufacturing and sale of defective body armor containing Zylon.
        The body armor companies manufactured and sold the defective body armor to the
        Department as well as to other Federal, State, local and tribal law enforcement
        agencies. Three companies agreed to pay the Government in excess of $46 million to
        resolve allegations that it violated the False Claims Act.

In FY 2010, OI will continue to: (1) assist DOJ in investigating and providing analysis of
Qui Tam cases; (2) adjust resources appropriately to ensure priority Qui Tam cases are being
resolved in a timely manner; and, (3) identify specific Qui Tam training for OI personnel.


Technology Crimes
Information Technology, another of the Department’s major issue areas, received a
significant amount of OI’s resources and attention during FY 2009. OI’s Technology
Crimes Section (TCS) is staffed by investigators with the specialized skills necessary to
proactively and reactively investigate the expanding number of complex technology crimes
that are occurring within many of the Department’s programs. TCS further strengthens
OI’s support to the Department, including NNSA, in detecting, preventing, and
investigating illegal network intrusions. Utilization of such a group is critical because of the
risks and vulnerabilities on the rise (i.e. security breaches, computer systems intrusions, virus
attacks, and employee misuse). In FY 2009, TCS provided technical expertise on standard
fraud cases. Additionally, TCS investigations also led to several criminal convictions against
individuals who compromised Government computers or misused them by accessing or
storing sexually explicit material to include child pornography. An example of a recent
success is as follows:




                                              42
OFFICE     OF   INSPECTOR     GENERAL                   U.S.   DEPARTMENT              OF    ENERGY
Our Organization: Office of Investigations




     ■   A Romanian hacker was convicted by a Romanian court for hacking into unclassified
         Department of Energy computers, as well as systems at the National Aeronautics and
         Space Administration and the Department of the Navy. The investigation revealed
         that the Romanian had compromised at least 22 unclassified computers at
         4 Department laboratories, including systems at a weapons laboratory. The subject
         illegally gained access to the computers by stealing user names and passwords from
         academic personnel at various universities that also have access to Department
         computers. The individual was sentenced by the First Instance Court, Arad, Romania,
         to 40 months probation and further ordered to pay restitution and fees of
         approximately $225,821, of which $19,032 was returned to the Department.


During FY 2010, TCS will: (1) continue to proactively contribute to and support fraud
investigations through consultations and forensic media analysis; (2) investigate incidents of
technology crimes and non-compliance with applicable regulations involving protection of
the information infrastructure throughout the Department; (3) clarify and extend OI’s role
in technology incident response and investigations in the Department; (4) ensure all TCS
special agents continue to receive required technical training; and, (5) refine and provide
technology crimes awareness briefings throughout the Department complex.


Proactive Work
Historically, OI’s response to allegations of wrongdoing has been reactive in nature.
However, OI succeeded in implementing a process that streamlined and formalized
proactive case development with a targeted approach designed to ensure more efficient and
effective use of resources.

OI will continue its pursuit of proactive initiatives designed to effect positive change within
the Department and enhance OI’s ability to meet organizational goals and objectives. Close
attention will be paid to OI’s infrastructure needs to ensure adequate skills, tools, and
processes are in place to respond promptly and appropriately to emerging priority issues
identified by the President, Secretary, Congress, and public. Partnerships with other
established law enforcement agencies, Department managers, and employees will be
expanded, and productive sources of information will be further cultivated.




                                                 43
OFFICE       OF    INSPECTOR           GENERAL         U.S.   DEPARTMENT         OF   ENERGY
THIS PAGE INTENTIONALLY LEFT BLANK
Appendix A

PLANNED FY 2010 AUDITS
     AUDIT
     NUMBER               TITLE
National Security and Science
     A10AL001             Deactiviation and Demolition Projects at LANL
     A10AL002             NNSA’s W76 Refurbishment Project
     A10AL003             Follow-Up of NNSA’s High Explosives and Classified Parts
     A10AL004             Integrated Safety Management at SNL
     A10LL005             Compensation Disability Management and Return to
                          Work Programs
     A10LL006             Beryllium Exposure at Los Alamos and Livermore
     A10LV007             National Security Technologies Internal Audit Function
     A10LV008             NNSA Dismantlement Activities
     A10LV009             Follow-Up of NNSA’s Nuclear Explosive Safety Study Program
     A10YT010             Secure Transportation Asset Capabilities
     A10YT011             Highly Enriched Uranium Materials Facility Capacity

Energy
     A10DN001             EERE's Solar Technology Pathway Partnerships
     A10DN002             BPA’s Efforts to Integrate Wind Energy
     A10HQ003             Industrial Technologies Program
     A10HQ004             Advanced Technology Vehicle Manufacturing Loan Program
     A10OR005             Large Scale Energy Storage Technology Efforts
     A10OR006             Excess Uranium Management




                                             45
OFFICE   OF   INSPECTOR    GENERAL                    U.S.   DEPARTMENT       OF     ENERGY
                                                                 Appendix A: Planned FY 2010 Audits




Environment, Technology and Corporate
    A10CP001              Non-Facilities Contractor Prior Performance
    A10ET002              MOX Fuel Management
    A10ID003              Office of Nuclear Energy’s Fuel Cycle Research and
                          Development Program
    A10ID004              BEA PEMP Follow-Up
    A10ID005              Global Threat Reduction Initiative
    A10RL006              Integrated Safety Management
    A10RL007              Resolution of External Review Team Concerns with the Waste
                          Treatment Plant
    A10RL008              Disposition of the Pretreatment Engineering Platform at the
                          Hanford Site
    A10SR009              Disposition of Orphaned Surplus Nuclear Materials
    A10TG010              Technology Asset Management Systems
    A10TG011              Department’s System and Software Development Practices
    A10TG012              System Access Rick Management
    A10TG013              FERC’s Monitoring of Power Grid Cyber Security Practices
    A10TG014              Emergency Communication Network
    A10TG015              Follow-Up on the Department's Records Management Program
    A10TG016              Departmental Implementation of FISMA
    A10TG017              FERC's Implementation of FISMA


Planned Fiscal Year 2010 GMRA Audits
    A10FN001              Department of Energy’s Consolidated Financial Statement
                          Audit FY 2010
    A10FN002              FERC's Financial Statement Audit FY 2010
    A10FN003              Decommissioning and Decontamination Fund FY 2010 GMRA
    A10FN004              FMFIA FY 2010
    A10FN005              IT Management Letter FY 2010
    A10FN006              Financial Management Letter FY 2010




                                            46
OFFICE   OF   INSPECTOR    GENERAL                   U.S.      DEPARTMENT        OF    ENERGY
Appendix A: Planned FY 2010 Audits




       A10FN007                  Isotope Production and Applications Financial Statement
                                 FY 2010
       A10FN008                  Southwestern Power Administration Financial Statement Audit
                                 FY 2010

Planned Fiscal Year 2010 Statement Of Costs Incurred And Claimed Audits
       A10AL012                  Sandia 2009 SCIC
       A10AL013                  Los Alamos National Security LLC 2008-2009 SCIC
       A10CH014                  UChicago Argonne LLC 2009 SCIC
       A10ID018                  Battelle Energy Alliance 2009 SCIC
       A10LL015                  Lawrence Livermore National Security 2008-2009 SCIC
       A10LL016                  University of California at Berkeley 2009 SCIC
       A10LV017                  BWTX Pantex 2006-2009 SCIC
       A10RL019                  Battelle PNNL 2008-2009 SCIC
       A10SR020                  Savannah River Nuclear Services 2008-2009 SCIC
       A10SR021                  Washington Savannah River Company 2008-2009 SCIC
       A10YT018                  BWTX Y-12 LLC 2009 SCIC
       A10YT019                  UT Battelle LLC 2008-2009 SCIC

Planned Fiscal Year 2010 American Recovery And Reinvestment Act Audits
       A10RA001                  State Energy Program
       A10RA002                  Advanced Research Projects Agency – Energy Program
       A10RA003                  Office of Science’s Energy Frontier Research Centers
       A10RA004                  Fermi National Accelerator Laboratory’s NOvA Detector Project
       A10RA005                  Decommissioning and Demolition Activities at Office of
                                 Science Facilities
       A10RA006                  Management of the NSLS-II Project
       A10RA007                  Recovery Act Projects at SLAC
       A10RA008                  Recovery Act Projects at LBNL
       A10RA009                  Environmental Cleanup Activities at the Nevada Test Site
       A10RA010                  Environmental Cleanup Activities at Y-12
       A10RA011                  State Energy Program


                                                    47
OFFICE     OF    INSPECTOR           GENERAL                 U.S.    DEPARTMENT         OF   ENERGY
                                                                   Appendix A: Planned FY 2010 Audits




    A10RA012              Internal Controls over Integrated Biorefinery Projects
    A10RA013              WAPA’s Implementation of Borrowing Authority
    A10RA014              Weatherization Assistance Program
    A10RA015              Weatherization Assistance Program
    A10RA016              Vehicle Technologies Program
    A10RA017              Loan Guarantees for Innovative Energy Technologies
    A10RA018              Clean Cities Alternative Fuels Pilot Program
    A10RA019              Appliance Rebate Program
    A10RA020              Smart Grid Investment Grant and Demonstration Programs
    A10RA021              Clean Coal Power Initiative Awards
    A10RA022              Weatherization Assistance Program
    A10RA023              Industrial Carbon Capture and Storage
    A10RA024              Management of the FutureGen Cooperative Agreement
    A10RA025              Advanced Battery and Hybrid Components and
                          Manufacturing Project
    A10RA026              Internal Controls and Risk Mitigation over Recovery Act
                          Funding for Advanced Research Projects Agency for Energy
    A10RA027              Energy Efficiency and Conservation Block Grants
    A10RA028              EERE Applied Research, Development and Demonstration
                          under the Recovery Act
    A10RA029              Geothermal Technologies Program
    A10RA030              Building Technologies Program’s Implementation of the
                          Recovery Act
    A10RA031              Recovery Act Technology Transfer
    A10RA032              Recovery Act Infrastructure Modernization
    A10RA033              Environmental Remediation Projects at ORNL
    A10RA034              Remediation Activities at ETTP
    A10RA035              State Energy Program
    A10RA036              State Energy Program
    A10RA037              Performance of Recovery Act Funds at the Waste Isolation
                          Pilot Plant


                                             48
OFFICE   OF   INSPECTOR    GENERAL                    U.S.    DEPARTMENT           OF    ENERGY
Appendix A: Planned FY 2010 Audits




       A10RA038                  Project Controls of Recovery Act Spending at the Idaho
                                 Cleanup Project
       A10RA039                  Use of Recovery Act Funds to Accelerate Clean Up of the
                                 River Corridor Closure Contract
       A10RA040                  Management of the Plutonium Finishing Plant
                                 Remediation Project
       A10RA041                  Use of Recovery Act Funds on Solid Waste Program Activities
       A10RA042                  Central Plateau Remediation Workforce
       A10RA043                  Use of Recovery Act Funds for Upgrades to the Tank Farm
                                 Infrastructure at the Hanford Site
       A10RA044                  Use of Recovery Act Funds on Groundwater Program Activities
       A10RA045                  Decontamination and Decommissioning Activities at SRS
       A10RA046                  Waste and Material Disposition Activities at SRS
       A10RA047                  State Energy Program
       A10RA048                  EERE PAGE System
       A10RA049                  Accountability and Reporting Under the Recovery Act
       A10RA050                  Performance and Security of Recovery Act Systems
       A10RA051                  Management of Cyber Security and Operational Controls Over
                                 Smart Grid Technologies




                                                   49
OFFICE     OF    INSPECTOR           GENERAL                U.S.    DEPARTMENT         OF   ENERGY
                                                               Appendix A: Planned FY 2010 Inspections




PLANNED FY 2010 INSPECTIONS

Safety
    Handling, Storage, and Tracking of Regulated Chemicals at a Department Site
    Record Keeping and Storage of Pharmaceuticals at a Department Site
    Inspection of the Management of High Explosives at Selected Department Sites
    Radiation Protection Program at a Department Site
    Low Level Radioactive Waste Disposal at a Department Site


Security
    NNSA’s Megaports Initiative
    Department Use of Temporary Labor and Screening of Temporary Workers


Energy/Environmental
    Hydrogen-Fueled Combustion Engine (HICE) Durability
    Management of the Clean Coal Power Initiative (CCPI)


Corporate Management
    Organizational Conflict of Interest at a Department Site
    Controls Over Accounts Payable at a Department Site
    Disposal of Government Furnished Property Issued to Contractors at selected
    Department Sites
    Staff Augmentation at a Department Site
    Use of Consulting Contracts at a Department Site
    Planning Irregularities and their Impact on the Radioisotope Power Systems Program




                                            50
OFFICE   OF   INSPECTOR    GENERAL                     U.S.    DEPARTMENT           OF   ENERGY
Appendix A: Planned FY 2010 Inspections




Recovery Act
       Waste Disposal at a Department Site
       Department Efforts to Utilize Small Business Contracts During Recovery Act
       Implementation
       American Reinvestment and Recovery Act Grants for Geothermal Research at a
       Department Site
       Safety of Decommissioning and Demolition Projects at Various Department Sites
       American Reinvestment and Recovery Act Medical Screening at a Department Site


Implementation Reviews
       Follow-up Inspection on Review of Security at the Strategic Petroleum Reserve
       Follow-up Inspection on Recording of Telephone Conversations at a Selected
       Department Site
       Follow-up Inspection on Out-Processing of Employees at a Selected Department Site
       Follow-up Inspection on Oversight of Shock Sensitive Chemicals at a Selected
       Department Site




                                                51
OFFICE      OF   INSPECTOR          GENERAL              U.S.   DEPARTMENT          OF   ENERGY
Appendix B

OIG RESPONSIBILITIES AND AUTHORITIES
The Inspector General Act of 1978, as amended, requires the OIG to:
   ■   Conduct independent and objective audits and investigations;
   ■   Promote economy, efficiency, and effectiveness;
   ■   Prevent and detect waste, fraud, and abuse;
   ■   Review pending legislation and regulations; and,
   ■   Keep the Secretary and Congress fully and currently informed.




OTHER MANDATES
   ■   Government Performance and Results Act (GPRA) of 1993. Continuous review of
       the Department's implementation.
   ■   Executive Order 12863, "President's Foreign Intelligence Advisory Board," 1993.
       Reports to the Intelligence Oversight Board as required quarterly and "as necessary or
       appropriate." This includes reviews to ensure the Department's intelligence activities
       are conducted in accordance with existing requirements of Executive Order 12333,
       "United States Intelligence Activities."
   ■   Government Management Reform Act (GMRA) of 1994. Annual audit of
       Department-wide and designated component financial statements. This effort
       currently requires approximately 24 percent of the OIG’s resources, including
       contractual assistance from an external audit firm.
   ■   National Defense Authorization Act of 2000. Annual review of Department policies
       and procedures with respect to the export of sensitive U.S. military technologies and
       information to countries and entities of concern.
   ■   Reports Consolidation Act of 2000. Annual audit to identify the most significant
       management and performance challenges facing the Department.




                                              52
OFFICE    OF   INSPECTOR     GENERAL                     U.S.   DEPARTMENT      OF   ENERGY
Appendix B: Other Mandates




    ■   Federal Information Systems Management Act (FISMA) of 2002. Annual review of
        Department information security systems.
    ■   Section 522 of the Consolidated Appropriations Act of 2005. Biennial review of the
        actions of the Department’s Chief Privacy Officer.
    ■   OMB Circular No. A-123, Management Accountability and Control. New and
        expanded audit requirements are anticipated.
    ■   Department of Energy Orders. Audits of statements of costs incurred and claimed
        by the Department’s integrated contractors.




                                             53
OFFICE     OF    INSPECTOR   GENERAL                 U.S.   DEPARTMENT      OF   ENERGY
Appendix C

Validation and Verification
The chart below represents how the OIG validates and verifies its performance activities.

Data Sources:      OIG Semiannual Reports to Congress; Inspector General Act of 1978, as
                   amended; Government Management Reform Act; Government
                   Performance and Results Act; Government Information Security Reform
                   Act; False Claims Act; Executive Order 12863, "President’s Foreign
                   Intelligence Advisory Board"; and, Executive Order 12333, "United
                   States Intelligence Activities."

Frequency:         Biennially/Annually/Semiannually/Quarterly.

Data Storage:      OIG Energy Inspector General Project Tracking System.

Verification:      OIG policies and procedures; Yellow Book Standards; President’s Council
                   on Integrity and Efficiency Quality Standards for Investigations and
                   Inspections; and, internal and external peer reviews.




                                            54
OFFICE   OF     INSPECTOR   GENERAL                   U.S.   DEPARTMENT       OF   ENERGY
APP Covers 1-4.qxd   12/16/09   11:23 AM   Page 2




                                     Office of Inspector General
                                           Gregory H. Friedman
                                                    Inspector General
                 This report is also available on the Department of Energy/Office of Inspector General
                                           website at http://www.ig.energy.gov
APP Covers 1-4.qxd   12/16/09   11:23 AM   Page 1
